No. 19-156
In the Supreme Court of the United States
Diego Baldemar Islas
Petitioner
v.
The State of Texas
Resondent
Respondent’s Brief in Opposition
The undersigned counsel for the respondent is a member of the Bar of
this Court and hereby certifies that on November 27, 2019, a true and
correct copy of the Respondent’s Brief in Opposition was mailed via firstclass postage-prepaid service to Petitioner’s counsel:
Clay S. Conrad
Looney & Conrad, P.C.
11767 Katy Freeway, Suite 740
Houston, Texas 77079
Tel: (281) 597-8818
CSConrad@looneyconrad.com

/S/ HEATHER A. HUDSON
HEATHER A. HUDSON
Assistant District Attorney
Harris County, Texas
Harris County District Attorney’s Office
500 Jefferson, Suite 500
Houston, Texas 77002
Telephone: (713) 274-5826
Texas Bar No. 24058991
Hudson_heather@dao.hctx.net
Counsel for Respondent

